No. 19-1123
Leo Lech, et al.,
Petitioners
v.

Chief John A. Jackson, et al.,

CERTIFICATE OF COMPLIANCE

In compliance with this Court’s Rule 33.1(h), I hereby certify that the Reply
Brief for Petitioners in the above-captioned case complies with the typeface
requirements of Supreme Court Rule 33.1(b) because it is prepared in Century
Schoolbook font, size 12 point for the text and 10 point for the footnotes, and that
this brief contains 2861 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d).

Executed this a day of June, 2020.

Jeffrey Redfern

Counsel for Petitioners
